r4

CERTIFICATE OF SERVICE
I, Nancy D-Massenburg, certify that I deposited this
Petition for Writ of Certiorari with a third party carrier
on July 23, 2020 and resubmitted on September 21, 2020
to be delivered to the United States Supreme Court.

Clearly Addressed to:
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543

Respectfully,

a

%

&

Nancy D*Massenburg
PO Box 224
Blairs, Va. 24527
919.400.2033

\L
City/County o1

Notary Public

received
An#

I
l
I

KAYLA EMON DONIGAN
Notary Public
Commonwealth of Virginia
Registration No. 7751223
My Commission Expires Jan 31,2021

SEP 2 9 2020
iuPREME^nn.m^-f^K

No.
Nancy D-Massenburg
Petitioner
v.
Innovative Talent Solutions, Inc.
Lee Air Conditioners, Inc.
Respondents, et al.

AFFIDAVIT OF SERVICE
I, Nancy D*Massenburg. of lawful age, being duly sworn
upon my oath,, state that I did inform respondents of this
action via email. Per Supreme Court COVID-19 April
order and instruction of the court, no copies of brief are
required to be sent to respondents at this time.
- Corrections have been made per instruction of the court
and all documents re'submitted within the window of
time granted.
To be Filed for:
Nancy D-Massenburg
Petitioner, Pro Se
PO Box 224
Blairs, Va. 24527
919.400.2033

